OFFICE OF INSPECTOR GENERAL

              Audit Report

Evaluation of the Railroad Retirement Board’s
 Oversight of Railroad Employer Compliance


              Report No. 12-03
              January 26, 2012




RAILROAD RETIREMENT BOARD
                                 EXECUTIVE SUMMARY

The Office of Inspector General (OIG) reviewed the Railroad Retirement Board’s (RRB)
oversight of railroad employer compliance. In 1993, the agency approved the
establishment of the Audit and Compliance Division (ACD) within the RRB’s Bureau of
Fiscal Operations (BFO). ACD conducts external audits of railroad employers to ensure
compliance under the Railroad Retirement Act (RRA) and Railroad Unemployment
Insurance Act (RUIA), and verifies the accuracy and timeliness of reported
compensation and contributions. Although ACD does not have authority to audit taxes
under the Railroad Retirement Tax Act (RRTA), its staff reviews the compensation
amounts on which these payroll taxes are based. The objectives of this audit were to
evaluate the accuracy and completeness of ACD’s audit results, and the effectiveness
of ACD’s audit process, for a selected Non-Class I Railroad employer.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois and at the
office of the subject railroad employer from February to November 2011.

Findings

Our review found that, for the selected Non-Class I Railroad employer, ACD’s audit
results were not fully accurate and complete, and their audit process was not fully
effective to ensure compliance with the RRA and RUIA. ACD did not:

       use finalized documents for reconciliations;
       pursue individual compensation differences below $1,000 per employee, per
       year;
       have sufficiently detailed procedures to identify potentially covered employees;
       and
       properly communicate and coordinate with other RRB units.

Our audit identified potential underreported Tier I and Tier II creditable compensation of
approximately $283,000 and $320,000, respectively, which resulted in a potential
$84,000 in taxes lost to the RRB’s trust funds.

Recommendations

To improve operations, we recommend that the Bureau of Fiscal Operations:

       implement controls to ensure that auditors verify all information used in their final
       audit reports;
       implement controls to ensure ongoing communication with audited railroad
       employers and other RRB units during the entire audit process;
       revise its procedures to use lower thresholds for pursuing identified differences in
       creditable compensation;

                                              i
      request that the railroad employer submit a compensation adjustment report to
      correct the 141 employees with creditable compensation differences in calendar
      year (CY) 2007;
      revise railroad employer audit procedures to ensure that potentially covered
      employees are identified;
      refer the 11 identified individuals to the ACD’s coverage unit for review;
      establish controls for agency-wide coordination to ensure railroad employer
      compliance;
      request that the railroad employer submit a compensation adjustment report to
      credit service months for wage continuations paid in CYs 2008 and 2009; and
      request that the railroad employer submit a new compensation adjustment report
      to reverse the September 2008 compensation adjustment report.

Management’s Response

The Bureau of Fiscal Operations agreed to take corrective action for all nine of our
recommendations. The full text of management’s response is included in this report as
Appendix III.




                                            ii
                                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION

 Background .................................................................................................................. 1

 Audit Objectives ........................................................................................................... 2

 Scope ........................................................................................................................... 2

 Methodology ................................................................................................................. 3

RESULTS OF AUDIT
 Not Using Finalized Documents for Reconciliations Could Result in Errors ................. 4
   Recommendations .................................................................................................... 5
   Management’s Response .......................................................................................... 5

 ACD’s Procedure to Not Pursue Individual Differences Below $1,000 Per Year Could
 Have a Negative Cumulative Effect on Benefits ........................................................... 5
   Recommendations .................................................................................................... 6
   Management’s Response.......................................................................................... 6

 Procedures Are Not Sufficient to Identify Potentially Covered Employees ................... 6
   Recommendations .................................................................................................... 7
   Management’s Response .......................................................................................... 7

 A Lack of Agency Coordination Hindered Railroad Employer Compliance .................. 7
   Recommendations .................................................................................................... 9
   Management’s Response .......................................................................................... 9

 Appendix I - Glossary of Terms .................................................................................. 10

 Appendix II - Summary of Potential Underreported Compensation and Taxes .......... 12

 Appendix III - Management’s Response..................................................................... 13




                                                               iii
                                                 INTRODUCTION

This report presents the results of the OIG’s evaluation of the RRB’s oversight of
railroad employer compliance.

A glossary of terms has been provided in Appendix I.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the RRA and the RUIA.
These programs provide income protection during old age and in the event of disability,
death, temporary unemployment, or sickness. The RRB paid approximately $11 billion
in benefits to approximately 607,000 beneficiaries during fiscal year (FY) 2011.

For CY 2009, over 690 railroad employers reported Tier I and Tier II service and
compensation of $15.34 billion and $14.27 billion respectively, for over 250,000
workers.1 During FY 2009, railroad employers paid approximately $4.7 billion in railroad
retirement taxes and $92.9 million in RUIA contributions.

Prior to 1991, the OIG developed and implemented a program to audit the payroll
records of railroad employers. During the course of litigation to enforce an OIG
subpoena to a railroad employer, the OIG had been advised that railroad audits could
be justified as spot checks by the OIG to evaluate the efficiency of procedures used by
the RRB. However, the U.S. District Court, Northern District of Texas, ruled that the
OIG railroad employer audits went beyond spot checks and oversight, and refused to
enforce the subpoena. As a result of this ruling, OIG ceased doing audits of railroad
employers.

In 1993, the agency approved the establishment of the ACD within the RRB’s BFO.
ACD conducts external audits of railroad employers to ensure compliance under the
RRA and RUIA, and verifies the accuracy and timeliness of reported compensation and
contributions. Although ACD does not have authority to audit taxes under the RRTA, its
staff reviews the compensation amounts on which these payroll taxes are based. An
error in reporting compensation generally results in a related error in reporting railroad
retirement tax liability.




1
  Legislation enacted in 1974 restructured railroad retirement benefits into two tiers, so as to coordinate them more
fully with social security benefits. The first tier is based on combined railroad retirement and social security credits,
using social security benefit formulas. The second tier is based on railroad service only and is comparable to the
private pensions paid over and above social security benefits in other industries. Employees and employers pay
Tier I taxes at the same rate as social security taxes. In addition, both employees and employers pay Tier II taxes
which are used to finance railroad retirement benefit payments over and above social security levels.


                                                             1
ACD informs railroad employers of additional potential railroad retirement tax liability,
recommends that they report these amounts to the Internal Revenue Service (IRS), and
provides their audit results to the IRS.

ACD also gathers, verifies, and analyzes activities of railroad employers and employees
in support of the agency’s coverage determinations under the RRA and the RUIA. This
effort helps to ensure that those employees who work in the railroad industry receive the
retirement and insurance benefits that they have earned. ACD’s coverage unit submits
coverage cases to the Bureau of Law within the RRB’s Office of General Counsel. The
Bureau of Law then drafts a preliminary decision, which is forwarded to the agency’s
three-member Board for a formal determination.

The OIG’s report, “Review of the Railroad Retirement Board’s Audit and Compliance
Division,” disclosed deficiencies in ACD’s audit and reporting process.2 These
deficiencies caused the OIG to question the accuracy, completeness, and effectiveness
of the audits conducted by ACD.

This review supports the RRB’s strategic plan's goal to safeguard customers' trust funds
through prudent stewardship.

Audit Objectives

The objectives of this audit were to evaluate the accuracy and completeness of ACD’s
audit results, and the effectiveness of ACD’s audit process, for a selected Non-Class I
Railroad employer.

Scope

The scope of our audit was one ACD railroad employer audit report, selected from all
audit reports issued by ACD from FY 2008 through FY 2010. The selected audit report
was for a Non-Class I Railroad employer. 3

We limited our internal control testing to obtaining an understanding of ACD procedures
for conducting railroad employer audits, and to gaining an understanding of the subject
railroad employer’s payroll system, as it relates to reporting under the RRA and RUIA.
We determined that no further internal control testing was necessary, based on our
audit objectives.

Assessment of any additional taxable compensation and RRTA tax liability is under the
authority and responsibility of the IRS. Estimated tax figures are included in this report
for informational purposes only.


2
  “Review of the Railroad Retirement Board’s Audit and Compliance Division,” OIG Report No. 11-04,
February 1, 2011.
3
  U.S. Class I Railroads are line haul freight railroads with 2010 operating revenue of $398.7 million or
more.

                                                           2
Methodology

To accomplish our objectives, we:

      reviewed applicable laws, regulations, policies and procedures, (including ACD’s
      operating procedures and audit guide) and professional standards;
      obtained an understanding of the criteria that was applicable to our audit
      objectives;
      conducted a walkthrough of ACD operations and procedures to gain an
      understanding of controls over railroad employer audits;
      judgmentally selected one of ACD’s railroad employer audit reports for review
      from the universe of employer audit reports issued by ACD in FY 2008 through
      2010 (The report selected was for a Non-Class I Railroad employer.);
      gained an understanding of the subject railroad employer’s payroll system as it
      relates to reporting under the RRA and RUIA;
      verified compensation reported by the railroad employer to the RRB by
      reconciling to third-party documents and/or the railroad employer’s payroll
      records;
      reconciled compensation reported by the subject railroad employer to the RRB to
      compensation reported to the IRS;
      reviewed the railroad employer’s records for indications of employees or
      contractors that should have been covered under the RRA and RUIA, but had not
      been reported to the RRB;
      repeated selected ACD audit procedures for the subject railroad employer for
      CY 2007 to verify the accuracy and completeness of the ACD audit;
      performed audit procedures at the subject railroad employer for two additional
      years (CY’s 2008 and 2009) as a test of the effectiveness of ACD’s audit
      process; and
      compared OIG findings at the subject railroad employer to findings reported by
      ACD.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois and at the
office of the subject railroad employer from February to November 2011.



                                           3
                                             RESULTS OF AUDIT

Our review found that, for the selected Non-Class I Railroad employer, ACD’s audit
results were not fully accurate and complete, and their audit process was not fully
effective to ensure compliance with the RRA and RUIA. ACD did not:

           use finalized documents for reconciliations;
           pursue individual compensation differences below $1,000 per employee per year;
           have sufficiently detailed procedures to identify potentially covered employees;
           and
           properly communicate and coordinate with other RRB units.

Our audit identified potential underreported Tier I and Tier II creditable compensation of
approximately $283,000 and $320,000, respectively, which resulted in a potential
$84,000 in taxes lost to the RRB’s trust funds. See Appendix II.

The details of our findings and recommendations for corrective action follow. The full
text of management’s response is included in this report as Appendix III.

Not Using Finalized Documents for Reconciliations Could Result in Errors

ACD used unverified information for resolving errors in creditable compensation.

ACD’s mission is to conduct external audits of railroad employers to determine and
ensure compliance under the RRA and RUIA. To accomplish this mission, ACD
“[d]etermines whether employers are making the proper payment of unemployment
insurance contributions and proper reports of creditable compensation in an accurate
and timely manner.” 4

During our review, we found that auditors used documents that had not yet been
processed by the IRS and the RRB, as a basis for their reconciliations of creditable
compensation.5 They did this with the assumption that the documents would be
processed after their audit field work was complete. However, because ACD auditors
failed to have ongoing communication with both the railroad employer and with RRB’s
Compensation and Employer Services Center subsequent to their audit field work, they
did not know that the documents were never processed. As a result, some of the
reconciliations in their final audit report were incorrect.

Not maintaining ongoing communication with both the railroad employer and other RRB
units throughout the entire audit process increases the risk of undetected errors in taxes
and creditable compensation, which could have a monetary impact on the RRB’s trust
funds and future benefit payments.

4
    RRB Administrative Circular REF(RRB-3) dated May 17, 2004.
5
    These documents included adjustment reports for creditable compensation and adjusted IRS tax returns.

                                                          4
Recommendations

We recommend that the Bureau of Fiscal Operations:

      1. implement controls to ensure that auditors verify all information used in their final
         audit reports; and

      2. implement controls to ensure ongoing communication with audited railroad
         employers and other RRB units during the entire audit process.

Management’s Response

In regard to recommendation 1, the Bureau of Fiscal Operations concurred with this
recommendation. They have advised us that this control was submitted as part of ACD
Procedures Manual for OIG’s review and approval on October 14, 2011.

In regard to recommendation 2, the Bureau of Fiscal Operations concurred with this
recommendation. They have advised us that this control was submitted as part of ACD
Procedures Manual for OIG’s review and approval on October 14, 2011.


ACD’s Procedure to Not Pursue Individual Differences Below $1,000 Per Year
Could Have a Negative Cumulative Effect on Benefits

ACD did not pursue yearly compensation differences of less than $1,000 per employee.

ACD’s mission is to conduct external audits of railroad employers to determine and
ensure compliance under the RRA and RUIA. To accomplish this mission, ACD
“[d]etermines whether employers are making the proper payment of unemployment
insurance contributions and proper reports of creditable compensation in an accurate
and timely manner.” 6

During our review, we found that ACD did not pursue differences in creditable
compensation of less than $1,000 per employee per year, during their reconciliations.
This procedure resulted in underreported compensation ranging from $10 to $700 for
140 individuals, and overreported compensation for one individual; with a net potential
tax loss of approximately $3,500 for CY 2007, for the subject railroad employer.

ACD’s procedures instructed auditors not to analyze reconciliation differences of less
than $1,000 (per employee per year). ACD management told us that they had set a
$2,500 threshold for employees of Class I Railroad employers and $1,000 for
employees of other railroad employers. Therefore, ACD will not investigate differences
below these amounts for the reconciliation of individual creditable compensation.



6
    RRB Administrative Circular REF(RRB-3) dated May 17, 2004.

                                                        5
Not correcting differences in creditable compensation of $1,000 per individual per year
for Non-Class I Railroad employers (and $2,500 per individual per year for Class I
Railroad employers) could have a negative cumulative effect on one or more of the RRB
benefits payable to the affected railroad employees.

Recommendations

We recommend that the Bureau of Fiscal Operations:

   3. revise its procedures to use lower thresholds for pursuing identified differences in
      creditable compensation; and

   4. request that the railroad employer submit a compensation adjustment report to
      correct the 141 employees with creditable compensation differences in CY 2007.

Management’s Response

In regard to recommendation 3, the Bureau of Fiscal Operations concurred with this
recommendation. They have advised us that on November 16, 2011, details were
provided to OIG auditors on verbiage included in procedures to address this finding.

In regard to recommendation 4, the Bureau of Fiscal Operations concurred with this
recommendation to send a written request to the (railroad) employer to submit
compensation adjustments to correct the records of the 141 employees with differences
between taxable wages and creditable compensation in CY 2007.


Procedures Are Not Sufficient to Identify Potentially Covered Employees

ACD’s procedures are not sufficiently detailed to identify some groups of individuals
who could potentially be covered employees under the RRA and RUIA.
RRB Administrative Circular, REF(RRB-3), dated May 17, 2004, states the following as
part of ACD’s mission:

             AUDIT AND COMPLIANCE DIVISION ... Reviews the coverage of railroad
             employers to determine: (1) if all eligible employees are being reported as
             covered under the RRA and RUIA, and (2) if railroad services are being
             performed by contractors who are independent of the railroad employers.
             Refers all coverage information to the Bureau of Law. Also, refers matters
             identified during audits which may require action by other RRB
             bureaus/offices to the appropriate bureaus/offices.

During our review, we found that ACD did not identify potential creditable compensation
that was reported on CY 2007 IRS Form 1099 for six individuals. This is a possible
indication that these individuals should have been covered employees under the RRA
and RUIA. ACD's audit procedures for coverage were limited, vague, and instructed


                                            6
auditors to perform additional steps only “if time permitted.” As a result, ACD missed
the opportunity to identify potentially covered employees.

For the railroad employer reviewed, we identified approximately $164,000 in potentially
unreported creditable compensation, with a potential of $49,000 in unreported tax
liabilities, for the six individuals for CY 2007. Our 2008 and 2009 testing identified
additional compensation for some of these individuals and for an additional five
individuals. The total potentially unreported creditable compensation for CYs 2008 and
2009 was approximately $103,000, and the potential unreported tax liabilities totaled
approximately $32,000. See Appendix II for more details.

Not having sufficient, detailed audit procedures to identify potentially covered
employees prevents ACD from fully carrying out their mission.

Recommendations

We recommend that the Bureau of Fiscal Operations:

   5. revise railroad employer audit procedures to ensure that potentially covered
      employees are identified; and

   6. refer the 11 identified individuals to the ACD’s coverage unit for review.

Management’s Response

In regard to recommendation 5, the Bureau of Fiscal Operations concurred with this
recommendation. They have advised us that this control was submitted as part of ACD
Procedures Manual for OIG’s review and approval on October 14, 2011.

In regard to recommendation 6, the Bureau of Fiscal Operations concurred with this
recommendation. They have advised us that a memo was sent to the coverage section
on January 12, 2012. A copy of the memo is attached to management’s response in
Appendix III.


A Lack of Agency Coordination Hindered Railroad Employer Compliance

ACD’s audit of this railroad employer was not effective to ensure compliance with the
financial reporting requirements of the RRA and RUIA.

RRB Administrative Circular, REF(RRB-3), dated May 17, 2004, states the following as
part of ACD’s mission:

              AUDIT AND COMPLIANCE DIVISION … Conducts external audits of
              railroad employers to determine and ensure compliance with the financial
              reporting requirements of the Railroad Retirement Act (RRA) and Railroad


                                             7
                  Unemployment Insurance Act (RUIA). Determines whether employers are
                  making the proper payment of unemployment insurance contributions and
                  proper reports of creditable compensation in an accurate and timely
                  manner. Reviews and verifies railroad retirement tax deposit information;
                  Tier I and Tier II wages and credits; supplemental taxes; unemployment
                  employer contributions; unemployment insurance wage credits; sick pay
                  payments; and individual receivables under 2(f) and 12(0) of the RUIA.

Our review disclosed that ACD did not properly communicate and/or coordinate with
other RRB units to ensure the railroad employer’s compliance. Additionally, ACD gave
the railroad employer incorrect information, which led to the improper treatment of sick
pay. Lastly, ACD did not provide adequate guidance to the railroad employer
subsequent to the field work and/or did not perform adequate follow-up of its findings to
correct the omission of adjustment reports on the “Employers Quarterly Report of
Contributions under the Railroad Unemployment Insurance Act.”

The misclassification of wage continuation as sick pay resulted in Tier II taxes initially
being underreported by approximately $60,000 in CY 2008 and $61,000 in CY 2009.7
The railroad employer has corrected the underreporting by working directly with the
RRB’s Compensation and Employer Services Unit and the IRS. However, in the
process of adjusting creditable compensation for the above, the railroad employer did
not include service months on the adjustment reports. As a result, 169 individuals in
CY 2008 and 200 individuals in CY 2009 did not receive creditable service months for
which they may be entitled.

Lastly, the railroad employer submitted an adjustment report with the RRB in September
2008 to re-classify previously reported wage continuation as sick pay for seven
individuals for CY 2007. However, the railroad employer told us that their current
position is to treat any sick pay paid to its employees as regular wages. Therefore, the
compensation should continue to be treated as wage continuation and the submitted
adjustment should be reversed.

ACD’s lack of coordination with other RRB units hinders their ability to ensure
compliance with the applicable financial reporting requirements of the RRA and RUIA.




7
  Payments under a wage continuation plan are generally considered regular earnings. Regular earnings are
creditable as Tier I, Tier II, and RUIA compensation, and also generate service months. Sick pay does not yield
service months, is not creditable as Tier II compensation, and is not creditable as compensation under the RUIA.

                                                         8
Recommendations

We recommend that the Bureau of Fiscal Operations:

   7. establish controls for agency-wide coordination to ensure railroad employer
      compliance;

   8. request that the railroad employer submit a compensation adjustment report to
      credit service months for wage continuations paid in CYs 2008 and 2009; and

   9. request that the railroad employer submit a new compensation adjustment report
      to reverse the September 2008 compensation adjustment report.

Management’s Response

In regard to recommendation 7, the Bureau of Fiscal Operations concurred with this
recommendation. They have advised us that the Chief Financial Officer (CFO) will
forward a memo to the Executive Committee members requesting their support to
courtesy copy ACD with any policy changes to compensation or service credit
calculations that affect (railroad) employer audits.

In regard to recommendation 8, the Bureau of Fiscal Operations concurred with the
recommendation to send a written request for the railroad employer to submit a
compensation adjustment report to credit service months for wage continuations paid in
CYs 2008 and 2009, once confirmation and coordination on characterization of the
compensation reported is obtained from the Office of Programs for this railroad
employer.

In regard to recommendation 9, the Bureau of Fiscal Operations concurred with this
recommendation to send a written request for the railroad employer to submit a new
compensation adjustment report to reverse the September 2008 compensation
adjustment report, once confirmation and coordination is obtained from the Office of
Programs concerning the distinction between sick pay and wage continuation pay for
this railroad employer.




                                           9
                                                                       Appendix I


                           Glossary of Terms
Audit and Compliance      A unit of the RRB that conducts external audits of
Division (ACD)            railroad employers to ensure compliance under the RRA
                          and RUIA.

Class I Railroad          A line haul freight railroad with 2010 operating revenue of
                          $398.7 million or more.

Coverage determination    A decision by the RRB on whether or not an employer or
                          employee meets the definition of an employer or
                          employee as defined in the RRA and RUIA. An employer
                          who meets the definition is referred to as a covered
                          employer. Similarly, an employee who meets the
                          definition is referred to as a covered employee.

Coverage unit             A sub-unit of ACD that investigates and obtains coverage
                          information from possible covered employers. The
                          factual background information is then forwarded to the
                          RRB's General Counsel for review.

Creditable Compensation   Any form of payment made to an individual for services
                          rendered as an employee for an employer, as defined in
                          the RRA, and various other payments, such as
                          separation and dismissal allowances. Creditable
                          compensation is subject to an annual maximum.

Service Month             Any calendar month, or any part of a calendar month,
                          that an employee receives compensation for services
                          performed for a railroad employer; or a period of lost time
                          for which an employee receives compensation; or a
                          period of time credited to an employee for military
                          service. An individual’s entitlement to benefits and the
                          amount of such benefits are determined, in part, on the
                          individual’s years of service.




                                      10
                                                                 Appendix I


Sick Pay            Compensation paid under a plan or agreement available
                    on the same basis to employees in a like class and
                    payable for days not worked on account of injury, illness,
                    sickness, disease, pregnancy, or childbirth. Regular pay
                    that an employee receives while off sick is not
                    considered sick pay but regular earnings. Sick pay is
                    creditable as Tier I compensation only. Sick pay does
                    not yield service months, is not creditable as Tier II
                    compensation, and is not creditable as compensation
                    under the RUIA.

Tier I              The railroad retirement equivalent of social security
                    wages and benefit amounts.

Tier I benefits     Benefits paid by the RRB that are calculated using social
                    security formulas based on earnings credited under
                    social security and railroad retirement.
Tier I taxes        Taxes used to finance Tier I benefits. These taxes are
                    paid at the same rate as social security taxes by both the
                    employer and employee.

Tier II             The railroad retirement component that is comparable to
                    a private pension. The benefit financing, earnings credit,
                    and annuity benefit formula are based on employment
                    solely in the railroad industry.

Tier II benefits    Benefits paid by the RRB that are based on railroad
                    service only, and are comparable to the private pensions
                    paid over and above social security benefits in other
                    industries.

Tier II taxes       Taxes used to finance railroad retirement benefit
                    payments over and above social security levels, which
                    are paid by both employees and employers.

Wage continuation   A plan whereby an employee receives regular earnings
                    or salary while unable to work. Payments under a wage
                    continuation plan are generally considered regular
                    earnings rather than sick pay. Regular earnings are
                    creditable as Tier I, Tier II, and RUIA compensation and
                    generate service month credits for the months in which
                    the compensation is paid.




                                11
                                                                                                    Appendix II




      Summary of Potential Underreported Compensation and Taxes


                                                        Net Potentially Underreported
                                               Tier I       Tier II
         Issue                Year          Compensation Compensation                               Taxes
    $1,000 Threshold          2007                $15,679       $6,775                                 $3,483
        Coverage              2007               $164,197    $147,517                                 $48,725
        Coverage              2008                $92,942      $92,942                                $29,091
        Coverage              2009                  $9,711      $9,711                                 $3,040
       Erroneous
       Adjustment             2007                          $0                 $62,564                      $08
         Totals                                       $282,529                $319,509                 $ 84,339




8
  The questioned adjustment report was not used in the railroad employer’s tax filing; therefore, there is no potential
tax effect.

                                                          12
                                                                                   Appendix III

                 UNITED STATES GOVERNMENT	                                              FORM S·115' [1·821


                MEMORANDUM                                             RAILROAD RETIREMENT BOARD

                                                                                JAN 202012


TO        :	 Diana Kruel

             Assistant Inspector General for Audit



FROM      :	 Henry A. Rueden Original Signed by
             Chief of Audit and Compliance
             THROUGH: George V. Govan Original Signed by
                           Chief Financial Officer


SUBJECT:	 Draft Report - Evaluation of the Railroad Retirement Board's
          Oversight of Railroad Employer Compliance


Thank you for the opportunity to comment on the OIG Draft Report. Comments on the
recommendations are as follows:

Recommendations:

We recommend that BFO:

      1.	 implement controls to ensure that auditors verify all information used in
          their final audit reports;

          Concur with the recommendation to implement controls to ensure that
          auditors verify all information used in their final audit reports. This control was
          submitted as part of ACD Procedures Manual for OIG's review and approval
          Oct. 14, 2011. Target date: March 31,2012

      2.	 implement controls to ensure ongoing communication with audited
          railroad employers and other RRB units during the entire audit process;

         Concur with the recommendation to implement controls to ensure
         on-going communication with audited railroad employers and other RRB units
         during the entire audit process. This control was submitted as part of ACD
         Procedures Manual for OIG's review and approval Oct. 14, 2011. Target date:
         March 31, 2012

      3.	 revise its procedures to use lower thresholds for pursuing identified
          differences in creditable compensation;

Concur with the recommendation to revise its procedures to use lower thresholds for
pursuing identified differences between creditable and taxable

                                               13
                                                                        Appendix III
                                   -2­



   compensation. On November 16, 2011 details were provided to DIG auditors
   on verbiage included in procedures to address this finding. Target date:
   March 31 J 2012

4.	 request that the railroad employer submit a compensation adjustment

    report to correct the 141 employees with creditable compensation

    differences in CY 2007;


   Concur with recommendation to send written request to employer to submit
   compensation adjustments to correct the records of the 141 employees with
   differences between taxable wages and creditable compensation in CY 2007.
   Target date: March 31, 2012

5.	 revise railroad employer audit procedures to ensure that potentially
    covered employees are identified;

   Concur with the recommendation to revise railroad employer audit
   procedures to ensure that potentially covered employees are identified. This
   control was submitted as part of ACO Procedures Manual for DIG's review­
   and approval Oct. 14,2011. Target date: March 31,2012

6.	 refer the 11 identified individuals to the ACD's coverage unit for review;

   Concur with the recommendation to refer the 11 identified individuals to the
   ACO's coverage unit for review. Memo was sent to the coverage section on
   January 12, 2012. Target date: None, Memo Attached with completed action.

7.	 establish controls for agency-wide coordination to ensure railroad
    employer compliance;

   Concur. CFO will forward memo to Executive Committee members
   requesting their support to courtesy copy ACO with any policy changes to
   compensation or service credit calculations that affect employer audits.
   Target date: March 31,2012

8.	 request that the railroad employer submit a compensation adjustment.
    report to credit service months for wage continuations paid in CYs 2008
    and 2009;

  Concu r with reco mmendation to send written request for railroad employer to
  submit a compensation adjustment report to credit service months for w~ge
  continuations paid in CYs 2008 and 2009, once confirmation and coordinat,ion
  on characterization of the compensation reported is obtained from the Office
  of Programs for this railroad employer. Target date: March 31, 2012




                                    14
                                                                      Appendix III
                                 -3­



9.	 request that the railroad employer submit a new compensation
    adjustment report to reverse the September 2008 compensation
    adjustment report;

  Concur with recommendation to send written request for the railroad
  employer to submit a new compensation adjustment report to reverse the
  September 2008 compensation adjustment report, once confirmation and
  coordination is obtained from the Office of Programs concerning the
  distinction between sick pay and wage continuation pay"for this railroad
  employer. Target date: March 31,2012




                                  15

                                                                     Appendix III



             UNITED STATES OOVERNl'dENT
                                                 RAn_R.OAD RETIREMENT BOARD
             MElVIORANL)[IM



                                                              January 12, 2012
TO                Elinita Brown
                  Compliance Specialist

FROM              Henry A. Rueden Original Signed by
                  Chief, Audit & Compliance Division

SUBJECT           Audit Review by OIG MA Bay Commuter RR


Please review the attached document produced by the OIG for possible
coverage.

Should you have any questions or need additional information, please
contact me at 312-751-4679.

Attachment




                                          16
